CERTIFICATE OF SERVICE
I, Carolyn R. Dawson, hereby certify that one copy of the
oregoing Petition for Writ Certiorari and Appendix in Carolyn
R. Dawson, Pro se v. Kevin J. Pakenham, et al., was sent via
Next Day Service to the U.S. Supreme Court, ’ and following
parties listed below, this 14th day of August 2020.
Abel Manji
Texas Bar No. 00784520,
Arif Lawji
Texas Bar No .007966935
1470 First Colony Blvd Suite 210
Sugarland TX, 77479
Tel: 281-565-4621
Email: abelmanji@gmail.com
ATTORNEYS FOR RESPONDENT
KEVIN PAKENHAM
I declare under penalty of perjury that the foregoing is
true and correct.
& -6
Executed on August 14, 2020.
CAROLYN R. DAWSON, Pro se
9590 Minnesota Street, Apt. 3110
Houston, TX 77075
Tel: (346) 400-3278
Fax: (713) 391-8357
jusu7895@gmail.com

